                                               UNITED STATES 

                            SECURITIES AND EXCHANGE CO MM ISSION 

                                         WA SHINGTON , D.C .   20S49 



    OFFICE OF
INSPECTOR GENERAL

                                              September 23,2013


           Inspector General Lynne McFarland
           Office of Inspector General
           Federal Election Commission
           999 E Street, NW
           Suite 940
           Washington, DC 20463

           Re: 	    Report on the Quality Assessment Review of the Investigative Operations of
                    the Office of Inspector General for the Federal Election Commission

           Dear Inspector General McFarland:

           We have reviewed the system of internal safeguards and management procedures for the
           investigative operations of the Office oflnspector General (OIG) for the Federal Election
           Commission (FEC) in effect for the period January 1, 2012 through March 31, 2013. Our
           review was conducted in conformity with the Quality Standards for Investigations and the
           Quality Assessment Review Guidelines established by the Counsel of the Inspectors
           General on Integrity and Efficiency.

           We reviewed compliance with the FEC OIG's system of internal policies and procedures
           to the extent we considered appropriate. The review was conducted at the FEC OIG' s
           office in Washington, D.C. Additionally, we reviewed the case file for the one
           investigation completed during our review period, as well as two hotline complaint files
           from that period.

           In our opinion, the system of internal safeguards and management procedures for the
           investigative function of the FEC OIG in effect for the period January 1, 2012 through
           March 31 , 2013 , is in compliance with the quality standards established by the CIGIE.
           These safeguards and procedures provide reasonable assurance of conforming with
           professional standards in the planning, execution, and reporting of its investigations.

                                              Sincerely,



                                           a/W, ~
                                              Carl W. Hoecker
                                              Inspector General
List of Closed Investigative and Complaint Files Reviewed 


      Case File Number          Case Closing Date
         INV-11-01              December 23,2011
          HL-12-01              February 12, 2013
          HL-12-03              February 12, 2013
